September 24, 2010

KATE F. WILEY
DISTRICT MANAGER, ATLANTA DISTRICT

SUBJECT:          Audit Report – City Delivery Efficiency Review – Atlanta District
                  (Report Number DR-AR-10-009)

This report presents the results of our audit of City Delivery Efficiency Review – Atlanta
District1 (Project Number 10XG044DR000). Our objectives were to assess overall
efficiency of city delivery operations and identify opportunities to reduce operating costs in
the Atlanta District. This self-initiated audit addresses operational risk. See Appendix A for
additional information about this audit.

The U.S. Postal Service is delivering fewer pieces of mail to a growing number of
addresses as new households and businesses are added to the delivery network each
year. The Postal Service must achieve unprecedented levels of efficiency to accommodate
this new growth, while facing financial losses from declining mail volumes and rising costs.

Conclusion

The Atlanta District was not operating at peak efficiency and could reduce city delivery
operating costs. Our benchmarking comparison determined the Atlanta District used
approximately 9 minutes more per day than the national average for each carrier route,
compared to the standard for that route. This equated to more than 87,000 workhours over
10 years. The measurement for this factor, called percent to standard,2 was 111.18, about
5 percentage points above the national average of 106.49 percent.

Operation Efficiency

Although numerous factors were involved, our review of 22 randomly selected delivery
units confirmed these inefficiencies and determined that district management did not
always (1) provide sufficient review and oversight of unit offices’ operating efficiencies and
(2) coordinate with the mail processing facility to ensure mail was timely received and in a
condition that promoted office operating efficiency. Eliminating time-wasting practices and

1
  The Atlanta District is one of eight districts in the Southeast Area. It consists of 125 delivery units that deliver mail on
1,950 city routes with more than 1,383,844 delivery points.
2
  A measure of carrier office workhour performance in relation to mail volume and delivery points. A figure of 100 percent
indicates that office performance is at the stated performance goal. A figure greater than 100 percent indicates
performance is less than the desired standard.
City Delivery Efficiency Review -                                                                  DR-AR-10-009
Atlanta District


increasing focus on efficiency could allow management to reduce workhours. Some
examples include ensuring that:

        Management discusses morning and afternoon office expectations with carriers to
         reduce additional street time on routes.

        Clerks and carriers do not unnecessarily re-handle unshelved mail transport
         containers to identify and retrieve delivery point sequence3 (DPS) mail.

        Units receive the proper mail mix from the processing facility per the integrated
         operating plan (IOP).4

        Carriers spend less time waiting for mail.

See Appendix B for additional information about these issues.

Consequently, the Atlanta District used more workhours than necessary to deliver the mail.
Adjusting its operations would increase the Atlanta District’s overall efficiency by reducing
approximately 87,212 workhours, resulting in savings of about $2.7 million annually or $27
million over 10 years. See Appendix C for additional information about this issue.

We recommend the district manager, Atlanta District:

1. Reduce the Atlanta District’s workhours by 87,212 to achieve an associated economic
   impact of about $27 million over 10 years.

2. Reinforce Postal Service policies and procedures for supervising city delivery office
   operations in delivery units and eliminate time-wasting practices as appropriate.

3. Require processing facility managers and delivery managers to coordinate, review, and
   update all integrated operating plans to ensure mail arrives timely and in the condition
   necessary to promote office efficiency.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact in our
report. In response to recommendation 1, management stated the Atlanta District has
already taken corrective action and implemented a business plan on July 28, 2010 that
consists of various strategies. These strategies include ongoing route reductions, Flat
Sequencing System implementation, delivery unit optimization, training for delivery
supervisors and managers, and daily management actions, which will result in a total Fiscal
3
  A process for sorting bar-coded letter mail at the processing plants and delivery units into the carrier’s line-of-travel. Mail
is taken directly to the street, with no casing time in the office.
4
  The IOP contract covers mail arrival from the plant and identifies the product of mail agreed upon for each individual trip.
The primary purpose is to stabilize mail flow (for example, arrival time of DPS, auto letters, and auto flats) based on other
requirements for mail arrival such as the mail mix/unit distribution percentage.




                                                                2
City Delivery Efficiency Review -                                       DR-AR-10-009
Atlanta District


Year (FY) 2011 savings of 135,000 workhours, including the 87,212 hours cited in the audit
report.

For recommendation 2, management stated that to set morning and afternoon office
expectations, As of August 2, 2010, Delivery Operations has created and disseminated
reports to the field showing opportunities in the units in the areas of morning and afternoon
office time and Managed Service Points loading time. In addition, management also plans
to hold a class on City Delivery Operations. Regarding mail condition, the Atlanta District
plans to address the issues with DPS mail not arriving at the unit properly staged by clerks
and the Integrated Operating Plans (IOPs) mail arrival issue to ensure that units receive
their mail on time and in the proper mix by September 17, 2010. Further, to reduce carrier
wait time, the Atlanta District will re-emphasize to Customer Service Managers the Function
4 strategies requiring clerks to stage 80 percent of the mail in city carrier cases before
carriers arrive for duty by September 17, 2010. In addition, management plans to re-
emphasize that clerks should work mail in the following order: flats, letters, parcels, and
accountables. The Atlanta District will complete these actions by October 1, 2010.
In response to recommendation 3, management stated they would review and update all
IOPs by September 30, 2010. The Atlanta District will review IOPs on a continual basis as
the needs of the business dictate. See Appendix D for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions taken and planned should resolve the issues identified in
the report.

The OIG considers recommendation 1 significant and therefore requires OIG concurrence
before closure. The OIG considers the support provided by management detailing
corrective ongoing actions to be sufficient to close this recommendation.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery, or
me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                               3
City Delivery Efficiency Review -             DR-AR-10-009
Atlanta District




cc: Patrick R. Donahoe
    Steven J. Forte
    Dean J. Granholm
    Linda J. Welch
    Chanel L. Reedus
    Elizabeth A. Schaefer
    Phillip F. Knoll
    Corporate Audit and Response Management




                                       4
City Delivery Efficiency Review -                                           DR-AR-10-009
Atlanta District


                                 APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Delivery operations are the Postal Service’s largest operational function, accounting for
approximately 45 percent of salary expenses and workhours. Despite an annual increase of
approximately 1 million delivery points, delivery operations used 36.5 million fewer
workhours in fiscal year (FY) 2009 because of effective growth management, increased
use of automation, standardization of best practices, and improved productivity. Although
delivery operations used fewer workhours, workhour reduction has not kept pace with
declining mail volume. Nationally, mail volume declined by 14 percent during the first two
quarters of FY 2010, ending March 31, 2010. During this same period, mail volume
declined in the Southeast Area by 8.9 percent while workhours declined by 6.2 percent,
and in the Atlanta District mail volume declined by 6.6 percent while workhours declined by
4.7 percent.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess the overall efficiency of city delivery operations and identify
opportunities to reduce operating costs within the Atlanta District. To accomplish our
objectives, we:

          Ranked the eight areas from highest to lowest in terms of percent to standard from
           April 1, 2009, through March 31, 2010. We used the national percent to standard of
           106.49 percent for April 1, 2009, through March 31, 2010, as a baseline guide.

          Judgmentally selected the Southeast Area and, within that area, the Atlanta District
           for review, because of its high percent to standard measurement of 111.18 percent.

          Randomly selected 22 delivery units in the Atlanta District for review.

    At the selected delivery units, we:

          Obtained, reviewed, and analyzed delivery unit data related to office operations.

          Conducted interviews on-site and obtained information on carrier operations, unit
           operations, processes, and procedures.

          Conducted physical observations of office delivery operations.

          Reviewed documentation and applicable policies and procedures for city delivery
           and Postal Service Handbooks M-395 and M-41.6


5
    Management of Delivery Services, March 1998.
6
    City Delivery Carriers Duties and Responsibilities, March 1998.




                                                              5
        City Delivery Efficiency Review -                                                        DR-AR-10-009
        Atlanta District


       We conducted this performance audit from June through September 2010 in accordance
       with generally accepted government auditing standards and included such tests of internal
       controls, as we considered necessary under the circumstances. Those standards require
       that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
       reasonable basis for our findings and conclusions based on our audit objectives. We
       believe that the evidence obtained provides a reasonable basis for our findings and
       conclusions based on our audit objectives. We discussed our observations and conclusions
       with management on September 2, 2010, and included their comments where appropriate.

       We relied on data obtained from Postal Service database systems, primarily from eFlash.7
       We did not directly audit the systems but performed limited data integrity review to support
       our data reliance. We assessed the reliability of delivery point data by reviewing existing
       information about the data and the system that produced them, as well as interviewing
       agency officials knowledgeable about the data. We determined that the data were
       sufficiently reliable for the purposes of this report.

       The U.S. Postal Service Office of Inspector General (OIG) identified four audits related to
       our objectives that were issued over the past 3 years.

       PRIOR AUDIT COVERAGE

                                              Final
                       Report                Report           Monetary
  Report Title        Number                   Date            Impact                          Report Results
City Delivery       DR-AR-10-007            8/26/2010       $79,016,988         The Bay-Valley District was not operating
Efficiency                                                                      at peak efficiency and could save
Review – Bay                                                                    workhours and reduce city delivery
Valley District                                                                 operating costs. Although numerous
                                                                                factors were involved, our review of 22
                                                                                randomly selected delivery units
                                                                                determined that district management did
                                                                                not always (1) provide sufficient review
                                                                                and oversight of unit offices’ operating
                                                                                efficiencies and (2) coordinate with mail
                                                                                processing facilities to ensure mail was
                                                                                timely received and in a condition that
                                                                                promoted office operating efficiency.
                                                                                Elimination of time-wasting practices and
                                                                                an increased focus on efficiency could
                                                                                allow management to reduce workhours.
                                                                                Management agreed to findings,
                                                                                recommendations and monetary impact.



       7
         A weekly operating report management system that combines data from delivery, mail processing, employee relations,
       labor relations, and finance. The information is extracted from various host systems and loaded into eFlash.




                                                                 6
        City Delivery Efficiency Review -                                             DR-AR-10-009
        Atlanta District


                                               Final
                       Report                 Report       Monetary
  Report Title        Number                   Date         Impact                     Report Results
City Delivery       DR-AR-10-006             7/1/2010    $105,000,000   The Los Angeles District was not operating
Efficiency                                                              at peak efficiency and could save
Review-Los                                                              workhours and reduce city delivery
Angeles District                                                        operating costs. Although numerous
                                                                        factors were involved, our review of 25
                                                                        randomly selected delivery units confirmed
                                                                        these inefficiencies and determined district
                                                                        management did not (1) provide sufficient
                                                                        review and oversight of unit offices’
                                                                        operating efficiencies and (2) coordinate
                                                                        with the mail processing facility to ensure
                                                                        mail was timely received and in a condition
                                                                        that promoted office-operating efficiency.
                                                                        Elimination of time-wasting practices and
                                                                        increased focus on efficiency could allow
                                                                        management to reduce workhours.
                                                                        Management agreed to findings,
                                                                        recommendations and monetary impact.
City Delivery       DR-AR-10-002            12/18/2009    $21,308,433   The audit concluded that the Napoleon
Efficiency                                                              Street Station was not operating at peak
Review – San                                                            efficiency and management could reduce
Francisco                                                               city delivery costs. Our benchmarking
Napoleon                                                                comparison of five similar delivery units
Street Station                                                          showed this station used 54,975 more
                                                                        workhours than necessary. We also found
                                                                        management did not adjust workhours to
                                                                        the changes in workload. Management
                                                                        agreed with our findings and
                                                                        recommendations to correct the issues
                                                                        identified.
Timely City         DR-AR-08-001            10/11/2007       N/A        The audit confirmed the Chicago District
Delivery –                                                              had difficulty with timely mail delivery.
Chicago District                                                        Specifically, delivery performance
                                                                        indicators showed office performance was
                                                                        well below standard and street
                                                                        performance was at an all-time low.
                                                                        Management agreed with our findings and
                                                                        recommendations to correct the problems.




                                                            7
City Delivery Efficiency Review -                                                            DR-AR-10-009
Atlanta District


                                   APPENDIX B: DETAILED ANALYSIS

Operation Efficiency

The Atlanta District used 87,212 more workhours than necessary. Our benchmarking
comparison determined the Atlanta District’s percent to standard measurement was 5
percentage points above the national average (111.18 percent compared to the national
average of 106.49 percent). In other words, the Atlanta District used approximately 9
minutes8 more per day on each carrier’s route than the average carrier route in the nation.
From April 1, 2009, through March 31, 2010, the Atlanta District ranked eighth in terms of
percent to standard within the Southeast Area. See Table 1.

                   Table 1. Southeast Area Percent to Standard Comparison
                             April 1, 2009, through March 31, 2010

                                                               Percent to
                                                               Standard             Ranking
                    National Average                            106.49                N/A
                    Districts in Southeast Area
                    Mississippi District                          91.62                  1
                    Alabama District                              98.72                  2
                    South Georgia District                        98.91                  3
                    South Florida District                        99.08                  5
                    Suncoast District                             99.68                  4
                    Tennessee District                            102.49                 6
                    North Florida District                        105.06                 7
                    Atlanta District                              111.18                 8
                  Source: eFlash

This condition occurred because management did not always (1) provide sufficient review
and oversight of unit offices’ operating efficiencies and (2) coordinate with the mail
processing facility to ensure mail was timely received and in the condition necessary to
promote office operating efficiency.

Setting Morning and Afternoon Office Expectations

Supervisors did not always set expectations for morning office operations at 13 of the 22
units. Further, supervisors did not effectively manage afternoon office time at 16 of the 22
units observed resulting in carriers incurring additional street time on the routes. For
example, supervisors often printed the Route Carrier Daily Performance Report, but did not
always discuss the report with carriers. If a carrier does not meet performance standards, a
supervisor must investigate and discuss any performance deficiencies with the carrier.
8
 5,232,720 minutes (87,212 hours above the national average percent to standard multiplied by 60 minutes per hour)
divided by 1,950 routes in the Atlanta District divided by 302 annual delivery days per year equals approximately 9
minutes per route per day.




                                                           8
City Delivery Efficiency Review -                                                     DR-AR-10-009
Atlanta District



We observed some carriers spending up to 10 minutes in the office after returning from
their routes. Postal Service policy allows a standard 5 minutes9 for carriers to perform
afternoon office duties. We also observed some carriers not clocking directly to “office time”
upon returning to the unit in the afternoon, resulting in much of this additional time being
included in street operations time. Atlanta District officials indicated that they have plans to
create and disseminate reports to the field identifying opportunities for improvement with
regard to morning and afternoon office time.

Mail Condition

DPS letters processed by the plants arrive at delivery units in mail transport containers that
are not staged for easy retrieval by the carriers. This requires clerks and sometimes
carriers to unload and sort through transport containers that may delay carriers
unnecessarily. Postal Service policy10 states that mail processing should stage DPS letters
for transport in shelved or modified containers so individual trays do not have to be re-
handled at the delivery unit. See Illustration 1.

                              Illustration 1: Carriers Re-handling DPS Mail




                        Source: OIG




9
 Some units allowed 10 minutes due to a local union agreement.
10
  Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
Section 2-6, 2007.




                                                       9
City Delivery Efficiency Review -                                                      DR-AR-10-009
Atlanta District


Mail Arrival

Mail was arriving late in 14 of 22 delivery units, delaying some carriers in the office up to
30 minutes. This occurred because of plant delays and the mail arriving from the plant not
matching the agreed upon mail mixture outlined in the IOP. The IOP is designed to help
stabilize mail flow and is critical in establishing appropriate staffing and reporting times to
ensure carriers are not delayed. Atlanta District officials have changed carrier start times
and outlined strategies that require 80 percent of the mail to be staged at the city carrier’s
case before arriving for duty. Although the district has daily meetings and uses the IOP
Discrepancy Reporting System and the Customer Service Daily Reporting System to report
issues to the plant, mail flow issues often remain unresolved.

In several instances, unit management required carriers to either wait for Express Mail® to
arrive before leaving the office, or return to the unit from the street to obtain Express Mail.
District management agreed that Express Mail processing needs improvement, and they
are discussing solutions to the problem. See Illustration 2.

                         Illustration 2: Carriers Waiting for Express Mail




                 Source: OIG

We found additional time was incurred by some carriers waiting to obtain accountable items
such as certified or registered mail. Postal Service policy11 states that accountable items
must be available for carriers in a timely manner so as not to cause delays. Because carrier
time should be minimized in the accountable operation, use of a mobile accountable cart
operation12 is highly encouraged. See Illustration 3.




11
   Field Operations Standardization Development, Morning (AM) Standard Operating Procedures (AMSOP) II Guidebook,
Section 3-1, 2007.
12
   Clerks use accountable carts to transport items from the accountable cage to carriers.




                                                       10
City Delivery Efficiency Review -                                       DR-AR-10-009
Atlanta District



                     Illustration 3: Carriers Waiting for Accountable Items




                   Source: OIG

Making adjustments to its operations would increase the Atlanta District’s overall efficiency
by reducing approximately 87,212 workhours, resulting in savings of about $2.7 million
annually or $27 million over 10 years. See Appendix C.




                                               11
    City Delivery Efficiency Review -                                                           DR-AR-10-009
    Atlanta District


                                        APPENDIX C: MONETARY IMPACT

              Finding                            Impact Category                                    Amount
        Operating Efficiency                 Funds Put to Better Use13                            $27,374,309


   We estimated the monetary impact of $27,374,309 in funds put to better use by reducing
   87, 212 workhours at delivery units in the Atlanta District. This amount included an
   estimated cost savings of $25,579,608 from reducing city letter carrier positions over 10
   years and $1,794,701 in reduction of delivery office overtime workhours over 2 years. See
   Table 2.

                            Table 2. Atlanta District Station Workhour Savings
                                                                      10-Year               2-year
                                                                    Projection of        Projection of
                                                                    Savings from         Savings from
                                              Estimated             Reduction of         Reduction of
                                             City Delivery           Full-Time           Partial FTEs’
                  Delivery       Total        Workhours             Equivalents            Overtime            Estimated
   District       Units14       Routes          Saved15            (FTE) Positions        Workhours           Total Savings
Atlanta             28            1,950         87,212                 $25,579,608         $1,794,701           $27,374,309
Source: OIG

       We calculated funds put to better use for FTEs over 10 years using the FY 2011 city
        carrier level 2 fully loaded, labor rate with an escalation factor of 1.7 percent.

       To determine the extent of the reduction of city carrier FTE positions, we used a cash
        flow analysis based on city carrier complement and attrition from the WebEIS for FYs
        2005 through 2009. We used this to determine how many city letter carriers are
        estimated to leave in future years.

       We used the discount rate of 3.875 percent based on the Postal Service’s Decision
        Analysis Report Factors (cost of borrowing rate).

       We calculated funds put to better use for reducing city carrier workhours not equivalent
        to a FTE using the city carrier overtime rate for FY 2011 with an escalation factor of 1.7
        percent for the 2-year projection.




   13
      Funds that could be used more efficiently by implementing recommended actions.
   14
      We identified cost savings at 28 of 125 delivery units in the Atlanta District.
   15
      The amount of estimated workhours the district can save if they improve their percent to standard from 111.18 down to
   the national average of 106.49. The reduction of these hours results in a projected FTE reduction of 36 positions over 10
   years and a reduction of 24,212 overtime hours over 2 years.




                                                              12
City Delivery Efficiency Review -                              DR-AR-10-009
Atlanta District



                           APPENDIX D: MANAGEMENT’S COMMENTS




                                          13
City Delivery Efficiency Review -        DR-AR-10-009
Atlanta District




                                    14
